               Office of Inspector General




December 27, 2005

EDWARD L. BROWN
MANAGER, ST. LOUIS ACCOUNTING SERVICE CENTER

NEAL R. HOLLIDAY
MANAGER, ST. LOUIS INTEGRATED BUSINESS
 SYSTEMS SOLUTIONS CENTER

SUBJECT: Audit Report – International Parcel Post Accruals
         (Report Number FT-AR-06-007)

This report presents an issue concerning internal controls over international Parcel Post
accruals recorded in the general ledger. We identified the issue during our annual audit
of the fiscal year (FY) 2005 Postal Service Financial Statements – St. Louis Information
Technology and Accounting Service Center (St. Louis Accounting Service Center)
(Project Number 05BM002FT001).

                                                   Background
The exchange of mail between countries, including air and surface parcels, or Parcel
Post, is governed by the Universal Postal Union (UPU) and bilateral agreements. The
UPU establishes Parcel Post rates for each country and publishes them annually in the
International Bureau Circular (IBC). Where bilateral agreements exist, the countries
involved exchange rate information.

The St. Louis Accounting Service Center, International Accounting Branch (IAB),
processes inbound and outbound international Parcel Post invoices and payments and
records accruals monthly in the general ledger. The IAB records the accruals at the
country level based on Parcel Post volume from the same period last year, multiplied by
the current rates from the UPU’s IBC.1 The IAB settles accounts on a quarterly basis
based upon documented volumes at the time of review.




1
    As shown in the Postal Service’s Parcel Post rate master file.
International Parcel Post Accruals                                                                FT-AR-06-007



                          Objectives, Scope, and Methodology
The objectives of this part of the audit were to determine whether international Parcel
Post accruals were properly stated in the general ledger and whether internal controls
and procedures for Postal Service International Parcel Post accruals were adequate.
To accomplish our objectives, we reviewed Parcel Post monthly accrual reports for
October 2004 through February 2005, totaling 20 reports (four for each month). For
inbound accruals, which represented Postal Service revenues and receivables, we
reviewed 458 countries’ and islands’ accrual transactions. For outbound accruals,
which represented Postal Service expenses and payables, we reviewed 386 countries’
and islands’ accrual transactions. For each country or island sampled, we recalculated
the monthly accrual amount according to Postal Service accounting policy and
compared the reported amounts and our calculated amounts. We also interviewed
personnel in the St. Louis Accounting Service Center IAB and reviewed applicable
regulations, policies, and related documents.

We conducted this audit from October 2004 through December 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
conclusions and observations with management officials and included their comments
where appropriate.

                                       Prior Audit Coverage
In our FY 2001 financial statements audit,2 we reported that the IAB did not have
written procedures explaining the accrual analysis and adjustment process, and only
one individual was trained to complete this complex process. The Postal Service took
corrective action based on our recommendations. IAB personnel documented policies
and procedures for the accrual analysis and adjustment process. In addition, alternate
personnel received training for this process.

                                                  Results
International Parcel Post accruals were properly stated. However, the IAB needed to
improve internal controls and procedures used to calculate international Parcel Post
accruals. This issue does not materially affect the current year’s Postal Service
financial statements. However, if addressed, it could enhance efficiency and financial
reporting accuracy.




2
 FY 2001 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting Service
Center (Report Number FT-AR-02-010, dated February 12, 2002).



                                                       2
International Parcel Post Accruals                                                                   FT-AR-06-007



International Parcel Post Accruals

Internal controls over international Parcel Post accruals needed improvement.
Specifically, the rates in the International Parcel Post rate master file were not always
accurate. Many of the rates reflected prior year rates, and monthly accruals
erroneously included Canada. This occurred because several Postal Service personnel
were able to modify rates and Postal Service management did not continuously monitor
file edits or monthly accrual reports to ensure data integrity.

For outbound mail, rate discrepancies existed for all months (October 2004 through
February 2005) reviewed; for inbound mail, rate discrepancies existed for 3 of the
5 months reviewed. Specifically, of 458 inbound accrual amounts reviewed,
63 (13.8 percent) had incorrect rates. Of 386 outbound accrual amounts reviewed,
34 (8.8 percent) had incorrect rates.3 Additionally, the accrual reports erroneously
included a monthly accrual for Canada. The Postal Service remits payment to Canada
provisionally on a monthly basis for net activity based on the monthly average of the last
settled year. Therefore, monthly accruals should not include Canada. Because of rate
discrepancies and the inclusion of monthly accruals for Canada, accrued revenues were
overstated by approximately $4 million, and accrued expenses were overstated by
approximately $8.5 million.4 (See Appendix A for details.)

Data integrity is the security property that ensures data meets a given expectation of
quality and has not been exposed to accidental or malicious modification or destruction.
Additionally, the least privilege principle for computer systems and data means users
are granted only those access rights and permissions needed to perform their official
duties. 5 However, we found that 29 employees, including field office employees, could
edit rate information, while according to IAB management, only five of these required
edit capability. As a result, the integrity of international Parcel Post rates may be
compromised.

Correct Parcel Post rate master files enhance efficiency through accurate billings and
timely settlement with Foreign Postal Administrations. Additionally, accurate rates
reduce the risk of material misstatements.

During our review, Postal Service personnel took corrective action by removing access
for the 24 employees not requiring edit capability. In addition, Postal Service system
personnel stated they are moving the Parcel Post rate process to a Web-based
platform, which will allow users to view data without edit capability. This process is
projected to be complete in early FY 2006. Therefore, we are not making a


3
  The 63 inbound rate discrepancies represent 44 countries; the 24 outbound rate discrepancies represent
10 countries (2 countries with outbound rate discrepancies also have inbound rate discrepancies).
4
  Rate exceptions were converted to U.S. dollars using International Monetary Fund rates as of August 31, 2005.
5
  Handbook AS-805, Hardware and Software Security, Section 9-9.2, Data Integrity, and Section 9-4.1.4, Least
Privilege.



                                                         3
International Parcel Post Accruals                                            FT-AR-06-007



recommendation regarding system access; however, we will monitor the issue as
necessary.

Recommendations

We recommend the manager, St. Louis Accounting Service Center, in coordination with
the manager, St. Louis Integrated Business System Solutions Center:

1. Implement a procedure to continuously monitor changes to the Parcel Post rate
   master file.

2. Communicate to all International Accounting Branch personnel the requirement to
   monitor and document management review of the monthly accrual reports.

Management’s Comments

Management agreed with recommendations 1 and 2 and implemented a procedure,
beginning in FY 2006, to verify the accuracy of rates within the Parcel Post rate master
file on a quarterly basis. Management also communicated the requirements to monitor
and document review of monthly accrual reports. Additionally, management stated IAB
management personnel will review monthly accruals and verify accuracy of rates on a
sample basis and document those reviews monthly. Furthermore, management
suggested a wording change to make our statement regarding settling accounts more
accurate. Management’s comments, in their entirety, are included in Appendix B of this
report.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2 and actions
taken or planned should correct the issues identified in the finding. We also appreciate
management’s commitment to perform a documented review of the monthly accruals
and accuracy of rates on a sample basis. In addition, we incorporated management’s
suggested wording change to better clarify the quarter-end account settlement process
with foreign postal administrations.




                                            4
International Parcel Post Accruals                                         FT-AR-06-007



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Statements, or me at (703) 248-2300.

     E-Signed by Gary Rippie
 ERIFY authenticity with ApproveI



for
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Lynn Malcolm
    Robert L. Otto
    Vincent H. DeVito, Jr.
    Jon T. Stratton
    Elizabeth L. Novillis
    Steven R. Phelps




                                            5
       International Parcel Post Accruals                                                                 FT-AR-06-007



                      APPENDIX A. PARCEL POST ACCRUAL ERRORS
                   INBOUND MAIL                                                  OUTBOUND MAIL
                                    Rate    Net Dollar                                                   Rate        Net Dollar
Count            Country                                        Count             Country
                                   Errors    Value*                                                     Errors        Value**
  1         Afghanistan              2           ($ 167)         45        Canada****                     2         $8,566,753
  2         Albania                  2           ($ 251)         46        Denmark                        6           ($ 2,873)
  3         Angola                   1              ($ 2)        47        Ecuador                        4           ($ 1,481)
  4         Anguilla                 2             ($ 92)        **        Germany                        2          ($ 22,438)
  5         Antigua                  2              ($ 8)        **        Hong Kong                      4           ($ 9,215)
  6         Argentina                2             ($ 76)        48        India                          4            $ 15,258
  7         Armenia Rep.             2            ($226)         49        Jamaica                        4               $ 851
  8         Aruba                    1              ($ 9)        50        Norway                         4          ($ 49,687)
  9         Australia                2       ($ 18,422)          51        Solomon Islands                2               ($ 32)
 10         Austria                  2        ($ 5,602)          52        Yugoslavia                     2            ($3,952)
 ***        Canada                          $4,073,443                     Outbound Totals                34        $8,493,184
 11         Cayman Islands           1           ($ 183)
 12         Croatia                  1             ($ 83)
 13         Eritrea                  1             ($ 32)   * Rate exceptions were converted to U.S. dollars using the
 14         Ethiopia                 1           ($ 141)    International Monetary Fund rates as of August 31, 2005.
 15         Finland                  2         ($ 1127)
                                                            ** This country also appears on the inbound exception list.
 16         France                   2        ($ 2,956)
 17         Gambia                   1           ($ 185)    *** This exception is due to the erroneous Canada monthly
 18         Germany                  2       ($ 33,755)     accrual and is not a rate error. Therefore, it is not included in the
 19         Ghana                    1           ($ 786)    count of rate exceptions.
 20         Greece                   1        ($ 1,244)
 21         Guadeloupe               1             ($ 61)   **** Net Dollar Value consists of rate exceptions of ($77,828) and
                                                            erroneous Canada monthly accrual of $8,644,581.
 22         Guatemala                1           ($ 254)
 23         Guinea                   1             ($ 48)
 24         Guyana                   1           ($ 152)
 25         Haiti                    1              ($ 8)
 26         Hong Kong                1        ($ 7,632)
 27         Hungary                  1           ($ 694)
 28         Iceland                  2           ($ 375)
 29         Kazakhstan Rep.          1              ($ 6)
 30         Korea                    1       ($ 15,335)
 31         Kuwait                   1             ($ 88)
 32         Laos                     1           ($ 301)
 33         Latvia                   1           ($ 323)
 34         Lebanon                  1             ($ 54)
 35         Lithuania                1        ($ 1,327)
 36         Luxembourg               1           ($ 471)
 37         Netherlands              4        ($ 7,669)
 38         New Zealand              2        ($ 4,570)
 39         Spain                    1        ($ 2,188)
 40         Sri Lanka                1             ($ 28)
 41         St. Lucia                1             ($ 27)
 42         Switzerland              2        ($ 4,546)
 43         United Arab              2          ( $ 789)
 44         United Kingdom           2        ($ 6,820)
            Inbound Totals           63     $3,954,330




                                                            6
International Parcel Post Accruals                     FT-AR-06-007



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                     7
International Parcel Post Accruals       FT-AR-06-007




                                     8
